<html>
<title> - POLITICALLY-MOTIVATED (IN)JUSTICE? THE EXTRADITION CASE OF JUDGE VENCKIENE</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                 POLITICALLY-MOTIVATED (IN)JUSTICE? THE
                  EXTRADITION CASE OF JUDGE VENCKIENE

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 27, 2018

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 115-2-6]
                             
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                             
                             


                       Available via www.csce.gov
                       
                       
                       
                       __________

             U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-258 PDF          WASHINGTON : 2019                             
                       
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS
                    

               HOUSE                                    SENATE

                                                   

CHRISTOPHER H. SMITH, New Jersey,       ROGER F. WICKER, Mississippi,
Co-Chairman                             Chairman
ALCEE L. HASTINGS, Florida              BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama             JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas               CORY GARDNER, Colorado
STEVE COHEN, Tennessee                  MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina          JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas               TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                   SHELDON WHITEHOUSE, Rhode Island

                

                     EXECUTIVE BRANCH COMMISSIONERS

                           Department of State
                         Department of Commerce
                          Department of Defense

                                  [ii]
                                  
                                  
                 POLITICALLY-MOTIVATED (IN)JUSTICE? THE
                  EXTRADITION CASE OF JUDGE VENCKIENE

                              ----------                              

                           September 27, 2018

                             COMMISSIONERS

                                                                   Page
Hon. Randy Hultgren, Commissioner, Commission on 
  Security and Cooperation in Europe.............................     1

                               WITNESSES

Karolis Venckus, Son of Judge Neringa Venckiene..................     3

Professor Mary G. Leary, Catholic University of America, Columbus 
  School of Law..................................................     5

Abbe Jolles, Esq., International Human Rights Litigator, 
  AJ Global Legal................................................     7

Dr. Vytautas Matulevicius, Member of Lithuanian 
  Parliament, Way of Courage Party (2012-2016)...................     9

                                APPENDIX

Prepared statement of Hon. Randy Hultgren........................    17

Prepared statement of Karolis Venckus............................    19

Prepared statement of Mary G. Leary..............................    21

Prepared statement of Abbe Jolles, Esq...........................    24

Prepared statement of Dr. Vytautas Matulevicius..................    26

Statement submitted by the Embassy of Lithuania..................    29


                 POLITICALLY-MOTIVATED (IN)JUSTICE? THE
                  EXTRADITION CASE OF JUDGE VENCKIENE

                              ----------                              


                           September 27, 2018

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2:07 p.m. in Room 2261, Rayburn 
House Office Building, Washington, DC, Hon. Randy Hultgren, 
Commissioner, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present:  Hon. Randy Hultgren, Commissioner, 
Commission on Security and Cooperation in Europe.
    Witnesses present:  Karolis Venckus, Son of Judge Neringa 
Venckiene; Professor Mary G. Leary, Catholic University of 
America, Columbus School of Law; Abbe Jolles, Esq., 
International Human Rights Litigator, AJ Global Legal; and Dr. 
Vytautas Matulevicius, Member of Lithuanian Parliament, Way of 
Courage Party (2012-2016).

 HON. RANDY HULTGREN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hultgren. Good afternoon. We're going to go ahead and 
start the commission hearing. It's a busy day here in 
Washington, but this is important. So good afternoon. Thank you 
all for joining us for this very timely Helsinki Commission 
hearing on possible political motivation behind Lithuania's 
request that the United States extradite Judge Neringa 
Venckiene.
    In 2008, Judge Venckiene's 4-year-old niece Deimante 
revealed to her family that her mother's friends, two of whom 
were government officials, were sexually molesting her in her 
mother's presence and at a local hotel where the mother allowed 
her to be taken alone with these men. Later investigation 
showed that the mother had unexplained income and an apartment 
from one of the government officials named by the girl. Judge 
Venckiene and Deimante's father had to plead with the police 
for a year before they finally began an investigation. However, 
the investigation was later ruled to be negligent.
    Ten members of law enforcement, including the prosecutor 
general, resigned or were fired over the case. Despite a 
Vilnius district court ruling that there was enough evidence to 
indict her, the mother was never indicted for her possible role 
in the sexual exploitation. Instead, a court ordered Deimante 
to be returned to her mother while Deimante was the key witness 
in an ongoing trial against her abusers. The girl refused to 
leave Judge Venckiene's for fear of further molestation.
    As you'll see shortly in a video of the events, 200 police 
officers came to Judge Venckiene's house and violently took the 
screaming child from her arms, giving her to the mother accused 
of sex trafficking. The U.S. is poised to extradite Judge 
Venckiene because an officer was bruised in the scuffle.
    When Judge Venckiene left Lithuania, the prosecutors were 
preparing more than 35 other charges against her as well, such 
as filing petitions with the court on behalf of Deimante, 
talking with the media about the problems in the investigation, 
conducting her own investigation, desecrating the national 
anthem, holding rallies, and humiliating the court--even 
attempting to overthrow the government.
    Lithuania is a friend and ally of the United States. 
Lithuania is an exemplary country and regional leader in many 
ways. But even friends and allies can make mistakes. Even 
friends and allies can have a weak area in their judicial 
system. Instead of zealously pursuing the people who sexually 
exploited Judge Venckiene's niece, the Lithuanian Government 
and judicial system have seemed to have targeted Judge 
Venckiene.
    Over the last 6 years, Lithuania's judiciary has prosecuted 
for false statements and other alleged crimes the child's 
grandparents, a medical professional who came forward with 
evidence, journalists reporting on the case in a way that was 
critical of the investigation, neighbors, people who attended 
rallies on behalf of the child, and many others who came 
forward with evidence or opposed the violent removal of the 
child from Judge Venckiene's care. I fear that Judge Venckiene 
will not get a fair trial in Lithuania, especially since the 
then chairman of the Supreme Court of Lithuania on national 
television said that Judge Venckiene is ``an abscess in the 
political system''--and I quote--and, another quote, ``the 
trouble of the whole state,'' end quote--effectively 
prejudicing her case nationwide. Moreover, many of the critical 
defendants, witnesses, and complainants are dead or have 
disappeared. The child's father, or Judge Venckiene's brother; 
two of the accused child molesters; and two key witnesses have 
all died under mysterious or violent circumstances since the 
case began. And Lithuania's legal and judiciary committees 
concluded that the investigation into the child's sexual 
exploitation was negligent and that the negligence compromised 
the case against the public officials.
    It's unclear that the litany of missteps in this child 
trafficking case can ever be corrected in Lithuania at this 
point. What is clear is that Judge Venckiene infuriated many 
people in power with her anti-corruption crusade and that the 
charges against her appear to be politically motivated. The 
U.S. Secretary of State could simply refuse to extradite Judge 
Venckiene on the grounds of political motivation, but as yet 
has not done so.
    Judge Venckiene came to the U.S. 5 years ago seeking 
political asylum, but her case has still not been heard. 
Consequently, Representative Smith and I have introduced a 
private bill, H.R. 6257, which would allow Judge Venckiene to 
be excluded from the treaty and to finish her case in the U.S. 
courts for political asylum. We believe that she deserves a 
chance to make her case in a U.S. court, a chance she has not 
received thus far.
    We also want to make sure that--hang on one second.
    [Off-side conversation.]
    Mr. Hultgren. We had invited the government of Lithuania to 
participate today. The government declined, but did provide 
written testimony which we've posted on the website.
    Here to represent Judge Venckiene's case is her son, 
Karolis Venckus. So we will move to introduction, to him first.
    Karolis is the son of Judge Venckiene. He was only 8 years 
old when his cousin came forward with her allegations of 
molestation and watched as the family struggled to seek justice 
for her. At 12 years old he fled Lithuania together with his 
mother, Judge Venckiene, and applied for asylum in the United 
States. Lithuania is not seeking his extradition. He's 
currently attending college in the United States. And we'll 
first recognize you for your testimony. Thank you for being 
here.

        KAROLIS VENCKUS, SON OF JUDGE NERINGA VENCKIENE

    Mr. Venckus. Thank you, Congressman Hultgren. My mom, 
Neringa Venckiene, is a former judge and a Parliament member of 
Lithuania. She is currently detained in Chicago's Federal 
prison by the request of the Lithuanian Government. She faces 
nearly 40 charges in our home country.
    The case started in 2008, when my cousin, who was 4 years 
old at the time, testified that while visiting her biological 
mother she had been abused by three men who are associates of 
her mother. She identified the men as Andrius Usas, a 
businessman and advisor to the Speaker of Parliament; Judge 
Jonas Furmanacius, and a third individual only known as Aidas 
[ph].
    My uncle, the girl's father, spent nearly a year trying to 
bring the case to court. He sent our more than 200 requests 
asking for investigation to his daughter's claims about her 
sexual exploitation. He spoke to national media and pleaded for 
help from local politicians. And although the court-ordered 
psychiatrist and psychologist determined the girl's testimony 
as true and not a result of fantasy or fabrication, the case 
seemed to be going nowhere.
    Could you play the first video, please?

    [A video presentation is shown.]

    Mr. Venckus. In October 2009, the accused judge and another 
woman involved in the abuse were shot and killed. My cousin's 
father disappeared that same day. My uncle became the prime 
suspect, and right away the prosecutors announced on national 
media that there was DNA evidence on the murder weapon 
confirming that my uncle committed the crime. Only much later 
the prosecutors had to admit that they had made a mistake and 
no DNA was found. A few months later, my uncle was also found 
dead. His death was determined to be an accident, a finding 
that many Lithuanians had trouble believing.
    After my uncle's disappearance in October 2009, government 
officials seized my cousin from the kindergarten and placed her 
in a psychiatric hospital. My mom was given custody of my 
cousin, and they were finally able to come home. The case was 
finally started and the Lithuanian Parliament concluded that 
the prosecutors stalled the case and neglected to investigate 
my cousin's claims. Many of the officials involved lost their 
jobs, including the prosecutor general.
    My mom, who was a judge at that time, started to publicly 
speak about the bribery and corruption in the Lithuanian 
courts. Journalists that supported my mom were often fined or 
their shows even prohibited to air. In May 2010, the court 
announced that my cousin has to live with her biological mother 
despite the fact that the pedophilia case has not been 
concluded yet and the fact that the girl was testifying against 
her mother for facilitating the molestation. My cousin refused 
to go, and thousands of Lithuanians surrounded the house and 
would not let the police pass and seize her.
    In June of that year, the alleged pedophile Usas was also 
found dead. According to the government, he also died of 
natural causes. He was found laying in a few-inch-deep puddle 
of water near his four-wheeler with his helmet near him.
    My cousin developed PTSD from the attempts to return her to 
her mother, and her doctors issued an order against further 
traumatizing attempts. Despite that fact, on May 17, 2012, 
around 240 police officers came to our house and used force 
against my cousin, violated my mother's judicial immunity by 
injuring her, and carried my cousin away screaming.
    Please play the second video.

    [A video presentation is shown.]

    Mr. Venckus. I haven't seen my cousin ever since. After 
that day there were massive protests and demonstrations in 
Lithuania and abroad.
    My mother resigned from the bench and founded a new 
political party created to fight against corruption and 
pedophilia which won seven seats in the Parliament while having 
almost zero funding. She promised to reform the judicial and 
political systems in Lithuania, with stricter punishments for 
corruption, rape, and pedophilia.
    Soon after the election, the prosecutor general requested 
the Parliament to remove my mother's legal immunity. The 
liberals, the conservatives, and the socialists all announced 
that they will be voting in favor of removing my mother's legal 
immunity, even before any evidence was presented and even 
before the ruling of the parliamentary commission that was 
supposed to investigate the matter. It became clear that my 
mother was an inconvenient obstacle to the corrupt legal and 
political systems and it was not safe for her in Lithuania 
anymore.
    So, in 2013, my mother and I fled to the United States and 
asked for political asylum.
    But the Lithuanian Government is seeking my mom's 
extradition before her political asylum case takes place, and 
the current extradition treaty does not allow my mom to present 
any counter-
evidence to the Lithuanian Government's claims or to 
demonstrate the political nature of the case.
    The number of crimes that my mom is accused of grew to 39. 
My grandparents, our aunts and uncles, our neighbors, my mom's 
supporters, and many of her party members are all facing 
charges in Lithuania, and some of them have already been 
sentenced.
    My mother will never receive a fair trial in Lithuania 
because Gintaras Kryzevicius, the chairman of the Supreme Court 
of Lithuania, has called my mom ``an abscess'' in the judicial 
and the political systems, and ``the trouble of the whole 
state.'' And the journalists, the prosecutors, and the 
politicians have been developing that narrative for years now. 
How can she receive a fair trial in Lithuania when the highest 
court officials are making public statements like this?
    There have been multiple uninvestigated deaths associated 
with the pedophilia case in Lithuania, and my mom and our 
family have also received multiple threats. And during one of 
my mom's campaign rallies, her car was tampered with.
    The government of Lithuania is biased toward my mother, and 
is neither capable of guaranteeing a fair trial for her, nor 
can it guarantee her safety there.
    Thank you for your time.
    Mr. Hultgren. Thank you, Karolis, for being here. Thank you 
for your testimony.
    Next, I will introduce Professor Mary G. Leary. Professor 
Leary is a professor of law at the Catholic University of 
America. Professor Leary's scholarship examines the 
intersection of criminal law, constitutional criminal 
procedure, technology, and contemporary victimization. She 
focuses on the exploitation and abuse of women, children, and 
vulnerable peoples. She is recognized as an expert in these 
areas of criminal law, victimization, exploitation, human 
trafficking, missing persons, technology, and the Fourth 
Amendment.
    Professor Leary.

   PROFESSOR MARY G. LEARY, CATHOLIC UNIVERSITY OF AMERICA, 
                     COLUMBUS SCHOOL OF LAW

    Ms. Leary. Thank you very much, Representative Hultgren, 
and thank you for convening this hearing. I'm grateful for the 
opportunity to engage in a dialog with you regarding the 
subject of this hearing, which touches on an area of my 
scholarship--child sexual exploitation.
    I want to begin my comments by noting that I participate in 
this dialog without a side in this debate. But as a legal 
researcher in the field of child sexual exploitation, I hope to 
assist the commission in putting some of this case into a 
context and offer some reference points in the field of child 
sex trafficking.
    Since the year 2000, the United States has been a leader in 
the international community in developing laws and policy 
regarding human trafficking. With the congressional passing of 
the Trafficking Victims Protection Act in 2000 and its 
subsequent reauthorizations in 2003, 2005, 2008, 2013, and 
2015, Congress properly cast a comprehensive definition of 
human trafficking generally and sex trafficking specifically.
    In so doing, Congress ensured that these definitions would 
reflect our ongoing and improved understanding of the realities 
of human trafficking by encompassing trafficking in all its 
forms. Similarly, these definitions seek to capture the many 
different types of traffickers that victims encounter and 
correctly label them as human traffickers.
    I don't need to tell the commission but, for the record, 
the TVPA defines sex trafficking to include the recruitment, 
harboring, transportation, provision, obtaining, patronizing, 
or soliciting of a person for the purpose of a commercial sex 
act. Crucial to our discussion today, however, is the legal 
definition of commercial sex act.
    A commercial sex act is not only a situation in which a 
purchaser buys a human being in cash from a third-party 
trafficker, colloquially referred to as a pimp here in the 
United States. But, rather, the definition of commercial sex 
act Congress sought to encompass the many forms of sex 
trafficking that occur, including what has been referred to as 
interfamilial sex trafficking.
    A commercial sex act includes any sex act on the account of 
which, quote, ``anything of value is given or received by any 
person.'' Therefore, the laws recognized from early on the 
commercial nature necessary for an act of sexual exploitation 
to be a sex trafficking simply requires that exchange of 
anything of value between any two people.
    Congress further demonstrated this comprehensive approach 
to sex trafficking of minors by including in its criminal 
offense explicitly an offender who, quote, ``knowingly benefits 
financially or by receiving anything of value by participating 
in a sex trafficking venture, as long as they know the person 
is a minor who will be engaged in the commercial sex act.''
    This provision captures the criminality of a parent who 
engages in an interfamilial child sex trafficking occurrence. 
Thus, the American law has recognized the prevalence of 
interfamilial sex trafficking and seeks to specifically combat 
it. Of course, the United States is not alone. Most other 
nations have joined the protocol to prevent, suppress, and 
punish trafficking in persons, especially women and children.
    That protocol, also known as the Palermo Protocol, defines 
trafficking equally as broadly, and I want to focus on the 
specific language where it defines trafficking to include the 
giving or receiving of payment or benefits to achieve the 
consent of a person having control over another person for the 
purpose of exploitation.
    So, again, not only does the Palermo Protocol explicitly 
identify this kind of exchange, it also describes exploitation, 
at a minimum, the exploitation of prostitution or other forms 
of sexual exploitation. Therefore, under American law, when any 
person receives a benefit or something of value in exchange for 
providing another for a sex act, that is sex trafficking and, 
internationally, we have the same situation.
    In the case before the commission today, assertions have 
been made that the child in this case was not only sexually 
abused but that the child's mother was, quote, ``complicit in 
allowing the abuse.'' In the course of the commission's review 
of this case, should it encounter evidence of this compliance 
being in exchange of something of value or that the victim's 
mother received a benefit for her consent to sexually abuse her 
daughter, such information would suggest a case involving child 
sex trafficking.
    Arguably, that could transform this case into one in which 
a guardian--in this case, the judge--simply did not want to 
hand her ward over to a sex trafficker.
    As the commission considers this case in the context of 
extradition and asylum, it may also wish to consider the 
possible implications of child sex trafficking should it 
encounter such evidence of the exchange.
    While child sexual abuse in all its forms is an assault on 
the dignity of a child, the matter of child sex trafficking is 
one of import, not only to the United States but globally. 
Given the leadership of the United States in combating 
trafficking in persons and Congress' specific role in crafting 
a comprehensive trafficking legislation and ratifying the 
Palermo Protocol, instances of child sex trafficking have great 
import in American policy.
    If evidence of a benefit-based compliance emerges in the 
commission's review of this case, that evidence should be 
closely examined and, therefore, as the commission considers 
this complex case, it should examine it through the lens of 
child sex trafficking and--should the investigation indicate--a 
commercial sex act.
    I thank you for the time and I look forward to answering 
any questions.
    Mr. Hultgren. Thank you, Professor Leary.
    Next, we'll introduce Abbe Jolles. Abbe Jolles is a 
Washington, DC-based international human rights litigator. She 
provides representation worldwide, including conflict zones. 
She handles individual, corporate, criminal, and civil matters 
involving unlawful property confiscation, incarceration or risk 
of incarceration, and other human rights violations including 
immigration and global migration.
    Abbe was the first American woman admitted to the 
International Criminal Court and the first American admitted to 
the African Court on Human and People's Rights. She achieved a 
landmark result at the International Criminal Tribunal for 
Rwanda.
    Ms. Jolles, thank you.

  ABBE JOLLES, ESQ., INTERNATIONAL HUMAN RIGHTS LITIGATOR, AJ 
                          GLOBAL LEGAL

    Ms. Jolles. Thank you very much, Representative Hultgren, 
for the invitation to speak to you today about the extradition 
of Judge Neringa Venckiene.
    My name is Abbe Jolles. I am an international human rights 
litigator working globally. I was the first American admitted 
to the International Criminal Court and I achieved a landmark 
decision at the United Nation's Rwanda Tribunal. I am a 
founding member of Hear Their Cries, working to end immunity 
for sexual assaults committed by staff members of international 
organizations, including the United Nations. I have tried cases 
for more than 30 years and I have handled hundreds of assault 
cases, both felonies and misdemeanors.
    I am going to focus on three areas: First, what constitutes 
an extraditable offense under Article 2 of the extradition 
treaty between the United States and Lithuania; second, the 
extradition treaty's Article 16 limit on addition of new 
charges should Judge Venckiene be returned--this is a technical 
but an unenforceable limit; and, finally, and very important, 
the proviso that extradition must be refused when the charges 
are politically motivated under Article 4. It must be refused. 
It's not discretionary.
    In 2015, Lithuania demanded extradition of Judge Venckiene 
based on an alleged May 2012 assault on a federal officer. 
Judge Venckiene fled to the United States in April 2013 and 
immediately filed a request for political asylum, which is 
still pending. Between May--the May 2012 alleged assault and 
her April 2013 flight to the United States, Judge Venckiene was 
not arrested. At the time of the extradition demand by 
Lithuania, Judge Venckiene had been in the United States for 2 
\1/2\ years.
    On May 17th, 2012, as you've heard from Karolis, 240 
federal officers stormed Judge Venckiene's home to remove her 
7-year-old niece. It is alleged that Judge Venckiene and the 
little girl resisted and that Judge Venckiene punched a federal 
officer at that time.
    In the United States, when a federal officer is feloniously 
assaulted, the perpetrator is arrested immediately and jailed 
without bond. Here, it strains credulity to believe that there 
was a serious assault when the perpetrator remained free for an 
entire year and then was able to flee the country. Moreover, no 
extradition request was made for 2 \1/2\ years after Judge 
Venckiene's arrival in the United States.
    In the United States, these types of assault charges are 
often disposed of by way of plea bargains. Fair Trial 
International reports that there is no plea bargaining process 
in Lithuania. This further taints the process and presents a 
clear and present danger to Judge Venckiene should she be 
returned to Lithuania.
    The legal filings in this matter indicate that many charges 
have been added and subtracted over 6 years. At this juncture, 
there is one so-called extraditable charge and three related 
charges which wouldn't be extraditable on their own. 
Technically, pursuant to Article 16, Lithuania is not permitted 
to add charges once Judge Venckiene returns. Practically, this 
is unenforceable.
    This is a matter of concern here because Lithuania's 
original extradition request contained 14 charges, 10 of which 
were not extraditable offenses. In addition, during the last 6 
years, 39 different charges were alleged and added and 
subtracted, and most of those charges can't be the basis of 
extradition.
    There is much evidence that the extradition demand for 
Judge Venckiene is politically motivated. When charges are 
politically motivated, the Secretary of State must refuse 
extradition. An army of 240 federal officers converging on a 
private home to take custody of one little girl is a powerful 
indicator of political motivation.
    There are many other indications of political motivation, 
including the nature of all but one of the 39 charges discussed 
over the past 6 years. Charges such as contempt for the memory 
of the deceased, unauthorized disclosure about a person's 
private life, abuse of the rights and duties of parents, and 
complicity in a criminal act unspecified are a few of the 
manufactured, vague, politically motivated charges.
    Press reports indicate that sending Judge Venckiene back to 
Lithuania is a likely death sentence and that there is no 
chance of a fair trial. It is notable that Judge Venckiene's 
political party, the Way of Courage, seeks reforms, as Karolis 
indicated, in the justice system. But one of the things that 
they're looking to do is implement jury trials.
    It is also notable that in 2017 the State Department issued 
a report indicating that Lithuanian prisons do not meet 
international standards. Also in 2017 Malta rejected an 
extradition request from Lithuania on this basis. Ireland has 
refused to extradite to Lithuania based on substandard 
Lithuanian prison conditions as well. The Irish court ruled 
that the accused was likely to be held in inhuman and degrading 
conditions if extradited. Denmark has refused extradition to 
Lithuania, finding there was a risk the accused would be 
tortured if returned to face charges.
    In conclusion, it is likely that Judge Venckiene will 
suffer irreparable harm if she is returned to Lithuania. I am 
here today in the hopes that I can help convince you to do 
everything in your power to keep Judge Venckiene in the United 
States so that her 2013 asylum application, which has an 
excellent chance of success, can be decided.
    Thank you so much for your time.
    Mr. Hultgren. Thank you, Ms. Jolles. I appreciate your 
testimony.
    Our final witness is Dr. Vytautas Matulevicius. Dr. 
Matulevicius was elected to Lithuanian Parliament along with 
Judge Venckiene--excuse me--as a candidate of the new Way of 
Courage Party, which was led, again, by Judge Venckiene. He 
served for 4 years but did not run again after Judge Venckiene 
asked for political asylum in the United States.
    Dr. Matulevicius has a Ph.D. in humanitarian studies and is 
a journalist by trade. For many years he had his own television 
show called ``The Coast,'' which was one of the top television 
shows in Lithuania. For his professional work, he was awarded 
twice as a Person of the Year and Best Journalist in popular 
Lithuanian awards called a Who is Who in Lithuania.
    Doctor, thank you for being here today.

    [Note: Mr. Matulevicius' remarks are made through an 
interpreter.]

DR. VYTAUTAS MATULEVICIUS, MEMBER OF LITHUANIAN PARLIAMENT, WAY 
                  OF COURAGE PARTY, 2012-2016

    Dr. Matulevicius. I would like to thank Mr. Hultgren and 
all the members of the Helsinki Commission. It would be much 
more pleasant to discuss other topics in this environment.
    I believe that in the history of any country there are 
cases that reflect--mirror the key, essential problems of the 
country. The mirror of that kind became the case of Judge 
Venckiene and the judiciary persecution of the judge. Until 
recently, she was one of the most popular Lithuanian 
politicians, the leader of the parliamentary party. She became 
a symbol of the fight against the court corruption and probably 
the future Lithuanian president.
    However, she is today a prisoner in Chicago and she can be 
deported to Lithuania, where dozens of accusations and 
uncertain future are awaiting her. What happened that such a 
respectable and successful woman who worked as a judge for 13 
years suddenly became an internationally sought-for criminal?
    What really happened is something that I wouldn't wish on 
my enemy. One day, her brother's daughter began to tell and 
visually demonstrate how her mother's friend and two more men 
were using her body, and it's only understandable that Neringa 
Venckiene, being a judge, started defending her niece.
    The scale of such a fight can be judged from the fact that, 
in several years, Neringa Venckiene and her brother wrote over 
200 complaints and statements to law enforcement and other 
state authorities. Unfortunately, none of the alleged 
pedophiles ended up on a defendant's bench.
    One of the three men, who worked as a judge, was shot by 
someone. The other was not identified. The third one, who was 
the only one against whom the charges of molestation were 
brought up, on the eve of the court hearing, fell from a four-
wheel motorcycle and drowned in a knee-high puddle of water. 
Unfortunately, he was the assistant to the speaker of 
Lithuanian Parliament.
    The girl's father was found dead as well. Out of 
frustration, he, due to the inaction of law enforcement, 
videotaped his daughter's testimony and began distributing it 
to journalists, and it was extremely dangerous. When the main 
parties to the proceedings were murdered or died in suspicious 
circumstances, the court tried the deceased defendant. 
According to the court, there was no pedophilia since the 
allegations supposedly were deliberately made up by the girl's 
father, who wanted to harm his ex-wife.
    This is the short plot of the case. In my conviction, that 
exhibits what can happen to people who are determined to fight 
against influential pedophiles who have important connections.
    I would like also to mention that the cases of pedophilia 
have tough time in other Western countries that have old 
democratic traditions. As an example, I can give the cases in 
Britain, where a movie star was taking advantage and abusing 
children. Unfortunately, all of that came to the surface only 
after many, many years--many, many years later when many of 
those powerful have been facing the judgment on the other side 
of life.
    A similar situation occurred in Belgium, where the 
investigation of the famous pedophile case also encountered 
obstacles that have not yet been seen. The justice system 
started moving from the point of death of--only when hundreds 
of thousands of citizens came to the streets protesting the 
inactivity of the law enforcement, then the country's 
parliament decided, finally, to step in.
    In Lithuania, the situation is even more grave, since, 
until now, we didn't eliminate and refuse the flaws and corrupt 
practices of the communist period of our lives, and the case of 
Venckiene itself can be regarded as a typical recurrence of the 
Soviet legal system, when an individual addressing the crimes 
of the powerful is being labeled as a criminal himself. That's 
how the KGB treated the dissidents and the people who would 
address the crimes and brought danger to the system and comfort 
levels.
    And it's not only my opinion. One of the former anti-Soviet 
fighters, a nun--a Catholic nun, Sister Nijole Sadunaite--
commented on the case of Judge Venckiene, ``This is the same 
KGB pattern.''
    Maybe it's interesting for you to hear that the nun, Nijole 
Sadunaite, is an honorary citizen of a city in Texas. She also 
has been awarded by the Republican Party of California a medal 
for her long fight for the human rights. That's a lady who 
knows what she's saying, and Sister Sadunaite is one of the 
most active and persistent defenders of the rights of 
Venckiene.
    I do understand that the Chicago judge who examined the 
extradition case of Judge Venckiene could not know the 
specifics of all post-communist countries and, therefore, she 
decided that the refugee would have every opportunity to defend 
her rights in a Lithuanian court. However, for those of us who 
know the beast, the judge's argument has only caused a bitter 
smile.
    I will touch up on three of the main violations of the 
standards of international law that Judge Venckiene would need 
to face if she would be deported to Lithuania. First of all, 
there would be an imminent danger to her life. I've already 
claimed that the pedophilia case in this question took six--the 
lives of six people, including those who were killed or died 
under suspicious circumstances. One of the leaders of the 
prosecutor's office even labeled the case as ``a killer.''
    But the protection of the state was appointed not to the 
victims who suffered for the actions of pedophiles but to the 
mother of the sexually exploited girl who was supposed to be 
indicted. She was supposed to be indicted as an accomplice in 
this case, based on a court order. The decision of the court 
has never been implemented. Therefore, there is a high 
probability that no appropriate attention will be given to 
Venckiene's safety at this time and anything could happen to 
her in the prison cell, as often happens in Lithuanian prisons.
    And sending a person to die, unless excluding the war 
cases, is prohibited not only by the rules of international 
laws but it's also elementary humanitarian principle. Article 
10 of the Universal Declaration of Human Rights claims that 
every person has the right to a fair and impartial trial.
    If Judge Venckiene will be returned to Lithuania, her case 
most probably would be considered by the Supreme Court, whose 
chairman, Kryzevicius, publicly named her an abscess in the 
judicial system. It's very humiliating labeling and, basically, 
what he is saying that if she is back the only verdict she can 
expect is guilty, and that's how he restricted her right to a 
fair and impartial trial. Although Judge Kryzevicius is now in 
a different position within the court system, he is still in a 
very influential judicial position--the head of the Supreme 
Administrative Court of Lithuania.
    And the last item--three--the chairman of the Supreme Court 
proceeded even further by labeling Venckiene as an abscess in 
the political system as well, and this was almost an open 
call--an invitation for the politicians to deal with a common 
enemy who constantly criticized both the judicial and the 
political authorities.
    That's what happened when Ms. Venckiene was elected into 
the Parliament of the Republic of Lithuania. When Venckiene, 
fearing for her own safety, left for the United States, the 
Parliament impeached her for not attending the meeting and 
expelled her from the Parliament. This was done behind her back 
without providing an opportunity to defend herself, and what's 
even worse, in the violation with the statutes of the 
Parliament, which has the power of law.
    I have no doubt that the same principles would be adhered 
to if Venckiene would be returned to Lithuania because her fate 
would be, again, in the hands of the same conspired politicians 
and judges.
    Thank you for your attention and for hearing me out, and 
I'm here to answer the questions, if you have any.
    Mr. Hultgren. Thank you, Doctor. Thank you, each of you. 
Also, I'm so glad to be joined by my friend and colleague from 
Texas, also a Helsinki Commission member, Congresswoman Jackson 
Lee. Thank you so much for being with us.
    I just have a few questions, if that's all right, and then 
I do apologize--with many things going on today, we'll have to 
finish up after a few questions.
    But, Karolis, if I could ask you first, if you could just 
briefly talk about what's happened to your family and other 
supporters of your family who have remained in Lithuania.
    Mr. Venckus. Thank you, Congressman.
    As we talked about it, my mom is facing dozens of charges. 
My grandparents have been trialed multiple times. My mom's 
family members--her aunts, her uncles, her cousins--all of them 
are facing charges. Basically, everyone we know is facing 
charges in Lithuania, and there is enormous pressure on each of 
those persons.
    Mr. Hultgren. Ms. Jolles, if I could address to you--in 
your testimony, you indicate that the Way of Courage Party is 
advocating for jury trials, or at least had been, in Lithuania. 
Do I understand correctly that Lithuania does not currently 
have jury trials and how could this affect Judge Venckiene if 
she is extradited?
    Ms. Jolles. Well, if--pardon me--thank you for that 
question.
    If Judge Venckiene is extradited, I think they're just 
going to have a very quick kind of a system. They don't have 
jury trials and, almost more important, they don't have plea 
bargains. So they have something called a penal order and 
that's just, as best I can tell, where you plead guilty. You 
just plead guilty and you admit it and then you go to jail or 
you suffer whatever consequences.
    So the way I see it from everything that I've read, if she 
goes back, it's going to be a very quick--quickly disposed of. 
But it is shocking to me that she committed the crime, 
allegedly, in 2012, she sat there--I mean, I understand she ran 
for office. She did all these things, and I also understand 
that she, allegedly, had immunity.
    But that doesn't really matter because if you do something 
for which you have immunity, they arrest you and they take your 
defenses when you get there. Oh, no, no, you can't do that--I 
had immunity--or so, during that. So the fact that they just 
let it go and then, suddenly, in 2015, after she had been here 
2 \1/2\ years they decided that that was such a serious crime. 
Since when do we go extraditing people for these old cases 
where they didn't really do anything?
    And never would you see that in the United States. If you 
get in the way of a Federal officer who's trying to effect an 
arrest or a custody situation and you--and you clock him, which 
she's alleged to have done--punch him--you're done. They arrest 
you immediately. They don't say, go about your business and 
then, oh, flee to another country.
    Anyway, hope that wasn't too long.
    Mr. Hultgren. No. Thank you.
    Professor Leary, more specifically, on situations like 
this, if a child is testifying against a parent in a 
trafficking case, would a court ordinarily order that the child 
be returned to the parent before the testimony was complete?
    Ms. Leary. Thank you for your question, Representative.
    Of course not. That would compromise the child witness. We 
would say she would have conflicting allegiances and, 
typically, the child would be, at a minimum, with a care-giving 
relative, as she was in this case, or, if there was none 
available, some sort of foster care system. It is highly 
unusual, with a pending investigation, to have a child victim 
go live with the alleged perpetrator.
    Mr. Hultgren. Thanks, Professor.
    Dr. Matulevicius, if I could address a question to you. I 
wonder how Judge Venckiene's exit from Lithuania has affected 
the Way of Courage Party.
    Dr. Matulevicius. It affected it destructively. All of us 
knew that it will not end well and there was no way for us to 
keep her, and once she left for the United States the whole of 
society--there was such a big disappointment for everyone 
because any person that ever supported the party or supported 
Venckiene has been--tens and tens of people went to courts 
because they showed the citizens' duty to the country.
    Mr. Hultgren. Thank you.
    One last question--Karolis, if I can address it to you 
because I think this is--it's been addressed by, really, all 
the witnesses. But just very specifically, the government of 
Lithuania did not seek extradition until 2015. They say that it 
was because they did not know where Judge Venckiene was living. 
Was your mother hiding? What was she doing in the U.S. during 
that time?
    Mr. Venckus. Thank you for the question.
    The first charges were brought against my mom, including 
the assault on the officer, in 2012 while she was still a 
judge. Her legal immunity was removed for the first time and 
she did not have any legal protections. Then later, she was 
elected to the Parliament where she gained those protections 
once again. But the Lithuanian law allows the person, if 
they're caught in the middle of committing the act, even the 
criminal act, even if they're--even if they have legal immunity 
they can be arrested on the spot.
    Thank you.
    Mr. Hultgren. Yes, Doctor.
    Dr. Matulevicius. As a member of Parliament I personally 
was asking the majority of the Parliament. They took away 
diplomatic immunity--[inaudible]. She had to flee to the United 
States. Why didn't you demand to send her back? Somebody has 
passed away. Why didn't you take her to court? They had 
nothing--[inaudible]. They had no evidence, and they were 
hoping that if they take time they will collect the evidence.
    But with the last--[inaudible]--the party that initiated 
her case is now being sued for corruption. And one of the 
leaders of the prosecutors of this who handle the pedophilia 
cases, he went to--he's employed currently for a big business 
that was funding the party. So everything is interconnected, 
and it's obviously--obvious corruption.
    Mr. Hultgren. Thank you. Again, thank you. I've got so many 
more questions and this is so upsetting and hard to understand 
and disappointing--and I just, again, want to thank all of you 
for your time, for being here.
    I'm sorry it's such a busy day in Washington. I wish all of 
my colleagues could be here. But that's part of our job is to 
be able to get information and then share it. And so I will do 
my best to let my other colleagues know, to be able to see 
these really difficult to see videos that you've shown us--just 
horrible--and, again, just want to thank you for your time, 
thank you for your courage for being involved in this.
    And I think this is so important for us to know about this 
and continue to do everything we can to protect the judge, but 
then also hope to find answers for this little girl--this 
precious little girl--and to find out how she's doing and to 
make sure that she is placed somewhere where she knows she can 
be safe, finally.
    So, again, thank you all. If there is other information 
that you have that you want to get to us, please let us know at 
the Helsinki Commission. We'll make sure all the members of the 
commission have it, but also we'll make sure we get it out to 
other colleagues here in Congress.
    With that, again, thank you, and we will adjourn this 
commission hearing.
    [Whereupon, at 3:06 p.m., the hearing was adjourned.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


               Prepared Statement of Hon. Randy Hultgren

    Good afternoon, and thank you for joining the Helsinki 
Commission this afternoon for a very timely hearing on 
``Politically-Motivated (In)Justice? The Extradition Case of 
Judge Venckiene.''
    The Helsinki Commission monitors and encourages compliance 
with the Helsinki Final Act and other OSCE commitments by 
strengthening human rights monitoring, defending those 
persecuted for acting on their rights and freedoms, and 
ensuring that compliance with Helsinki provisions are given due 
consideration in U.S. foreign policy.
    This is true whether we are examining the records of other 
countries, or examining our own.
    In this case, I am concerned that the U.S. State 
Department--which approved Judge Venckiene's extradition after 
Secretary Tillerson left and before Secretary Pompeo was 
confirmed--may have overlooked some important factual context 
in the case of Judge Venckiene. Judge Venckiene is officially 
being extradited for bruising an officer who was taking her 
niece from her. However, the context of this charge and the 
more than 35 other charges leveled against Judge Venckiene in 
Lithuania give rise to concern that the extradition request is 
politically motivated.
    Under the U.S.-Lithuania extradition treaty, politically 
motivated charges should not be honored.Political author, 
political party leader, and parliamentarian, Judge Venckiene is 
prominent in Lithuania-and worldwide-for her fight against 
government corruption in Lithuania. In fact, the then Chief 
Justice of Lithuania (Kryzevicius) in 2012 stated on national 
television that Judge Venckiene ``is an abscess in the legal 
system and an abscess in the political system" and "the trouble 
of the whole state.''
    The government of Lithuania has repeatedly and prolifically 
charged Judge Venckiene with crimes related to Judge 
Venckiene's anti-corruption work. Judge Venckiene believed her 
young niece's 2008 sexual molestation accusations against two 
public officials and sought justice for her niece against what 
seemed to be inordinate obstacles. She protected her niece from 
being returned to the mother, who the girl accused of being 
involved in the molestation. The Lithuanian government ordered 
that the girl be returned to the mother in the middle of the 
trial--a trial in which the girl was testifying against her 
mother. More than 200 police were sent to Judge Venckiene's 
house to take the girl.
    Judge Venckiene, consistent with a congressional 
investigation, believed the Government of Lithuania failed to 
properly handle the investigations against the public officials 
and published a book about those failures in 2012 entitled, Way 
of Courage. ``Way of Courage'' became the name of a new, anti-
corruption political party in Lithuania, which elected Judge 
Venckiene to Parliament.
    In 2013, Judge Venckiene fled to the United States and 
promptly filed an application for political asylum--but, 5 
years later, is waiting for her case to be heard. In fact, the 
extradition process in the United States does not allow her to 
contest or provide counter evidence to any of the charges.
    I hope that today's hearing will complete the record, and 
the United States will make a decision in this case that is 
consistent with American law and principles.

                 Prepared Statement of Karolis Venckus

    My mom Neringa Venckiene is a former judge and a Parliament 
member of Lithuania. She's currently detained in Chicago's 
Federal Prison by the request of the Lithuanian Government. She 
faces nearly 40 charges in our home country.
    The case started in 2008, when my cousin, who was 4-years-
old at the time, testified that while visiting her biological 
mother, she has been abused by three men, who were associates 
of her mother. She identified the men as Andrius Usas, a 
businessman and an advisor to the Speaker of the Parliament, 
Judge Jonas Furmanacius and a third individual only known as 
Aidas. My uncle, the girl's father, spent nearly a year trying 
to bring the case to court, he sent out more the 200 requests 
asking for an investigation into his daughter's claims about 
her sexual exploitation, he spoke to national media, and 
pleaded for help from local politicians. And although court-
ordered psychiatrists and psychologists determined the girl's 
testimony as true and not a result of fantasy or fabrication, 
the case seemed to be going nowhere.
    In October 2009, the accused judge and another woman 
involved in the abuse were shot and killed, and my cousin's 
father disappeared that day. My uncle became the prime suspect. 
Right away, the prosecutors announced on national media that 
there was DNA evidence on the murder weapon confirming that my 
uncle committed the crime. Only much later the prosecutors had 
to admit that they have made a mistake and no DNA was found. A 
few months later, my uncle was also found dead.
    After my uncle's disappearance in October of 2009, 
government officials seized my cousin from the kindergarten and 
placed her in a psychiatric hospital. My mom was given custody 
of my cousin, and they were finally able to come home. The case 
was finally started, and it was concluded that the prosecutors 
stalled the case and neglected to investigate my cousin's 
claims. Many of the officials involved lost their jobs, 
including the Prosecutor General.
    My mom, who was a judge at the time, started to publicly 
speak about the bribery and corruption in the Lithuanian 
courts. Journalists that supported my mom were often fined, or 
their shows prohibited to air.
    In May of 2010, the court announced that my cousin has to 
live with her biological mother, despite the fact that the 
pedophilia case has not been concluded yet and the fact that 
the girl was testifying against her mother for facilitating the 
molestation. My cousin refused to go, and thousands of 
Lithuanians surrounded the house and would not let the police 
pass and seize her. In June of that year, the alleged pedophile 
Usas, was also found dead. According to the government, he also 
died of ``natural causes''--he was found laying in a few-inch 
deep puddle of water near his four-wheeler with his helmet near 
him.
    My cousin developed PTSD from attempts to return her to her 
mother, and her doctors issued an order against further 
traumatizing attempts. Despite that fact, on May 17th, 2012, 
around 240 police officers came to our house and used force to 
carry my cousin away screaming.
    I haven't seen my cousin ever since. After that day there 
were massive protests and demonstrations in Lithuania and 
abroad. My mother resigned from the bench, and founded a new 
political party, created to fight against corruption and 
pedophilia, which won 7 seats in the Parliament, while having 
almost 0 funding. She promised to reform the judicial and 
political system in Lithuania, with stricter punishments for 
corruption, rape and pedophilia.
    Soon after the election, the Prosecutor General requested 
the Parliament to remove my mother's legal immunity once again, 
but this time with one new allegation. The Liberals, the 
Conservatives and the Socialists, all announced that they will 
be voting in favor of removing my mother's legal immunity, even 
before any evidence was presented and even before the ruling of 
the Parliamentary Commission that was supposed to investigate 
the matter.
    It became clear that my mom was an inconvenient obstacle to 
the corrupt legal and political systems, and it was not safe 
for her in Lithuania anymore. So, in 2013, my mother and I fled 
to United States and asked for political asylum. But the 
Lithuanian Government is seeking my mom's extradition before 
her political asylum case takes place. And the current 
extradition treaty does not allow my mom to present any counter 
evidence to the Lithuanian Government's claims, or to 
demonstrate the political nature of the case.
    The number of crimes that my mom is accused of in Lithuania 
grew to 39. My grandparents, my aunts and uncles, our 
neighbors, my mom's supporters and many of her party members 
are all facing charges in Lithuania, and some of them have 
already been sentenced. My mother will never receive a fair 
trial in Lithuania, because Gintaras Kryzevicius, the chairman 
of the Supreme Court of Lithuania has called my mom ``an 
abscess in the judicial and the political system'' and the 
``trouble of the whole state'' and the journalists, the 
prosecutors, and the politicians have been developing that 
narrative for years now. How can she receive a fair trial in 
Lithuania, when the highest court officials are making public 
statements like this? There have been multiple uninvestigated 
deaths associated with the pedophilia case in Lithuania, and my 
mom and our family have also received multiple threats. And 
during one of my mom's campaign rallies, her car was tampered 
with. The Government of Lithuania is biased towards my mother, 
and it is neither capable of guaranteeing a fair trial for her, 
nor can it guarantee her safety there.

                 Prepared Statement of Mary Graw Leary

Introduction

    Chairman Wicker, Chairman Smith, Ranking Member Cardin, and 
Ranking Member Hastings, thank you for convening this hearing. 
I am grateful for the opportunity to assist you and engage in a 
dialog regarding the subject of this hearing, which touches 
upon an area of my scholarship: child sexual exploitation. I 
want to begin my comments with a candid statement that I 
participate in this dialog without a side in this debate. It is 
my intent to assist the Commission in putting some of the case 
in a context and offer some reference points in the field of 
child sex trafficking.

Child Sex Trafficking

    As the Commission well knows, 2000 was a watershed year for 
the fight against human trafficking. Here in the United States, 
Congress embarked on a powerful effort to end human trafficking 
with the enactment of the Trafficking Victims Protection Act 
(``TVPA'') of 2000. This journey has continued through numerous 
amendments and the TVPA's subsequent reauthorizations in 2003, 
2005, 2008, 2013, and 2015. Through this Act and its 
reauthorizations, Congress properly cast a comprehensive 
definition of human trafficking generally and sex trafficking 
specifically. In so doing, Congress also ensured that these 
definitions reflect our ongoing and improved understanding of 
the realities of human trafficking by encompassing trafficking 
in all its forms. Similarly, these definitions also seek to 
capture the many different types of traffickers victims 
encounter.
    To that end, the TVPA defines sex trafficking to include 
the recruitment, harboring, transportation, provision, 
obtaining, patronizing, or soliciting of a person for the 
purpose of a commercial sex act. \1\ A commercial sex act is 
not only a situation where a purchaser buys a human being in 
cash from a third-party trafficker. Rather, in the definition 
of a ``commercial sex act,'' Congress sought to encompass the 
many forms of sex trafficking that occur, including what has 
been referred to as intra-familial sex trafficking. A 
commercial sex act includes any sex act on account of which 
``anything of value is given or received by any person.'' \2\ 
Therefore, the law recognized from early on that the commercial 
nature necessary for an act of sexual exploitation to be sex 
trafficking simply required the exchange of the sex act for 
anything of value; and that exchange can be between any two 
people, not necessarily only a purchaser and victim of 
trafficking. Congress also classified the sex trafficking of a 
minor as a ``severe form of trafficking'' and defined it to 
include sex trafficking in which the person induced into the 
commercial sex act has not yet attained the age of 18. \3\ 
Congress further demonstrated this comprehensive approach to 
sex trafficking of minors by including in the criminal offense 
of sex trafficking not only those who knowingly engaged in the 
aforementioned acts. \4\ It also explicitly includes a person 
who ``knowingly benefits financially or by receiving anything 
of value'' from participating in a sex trafficking venture 
knowing that the person is a minor and will be caused to engage 
in a commercial sex act. \5\ Thus, American law recognizes the 
prevalence of intra-familial sex trafficking and seeks to 
specifically combat it. \6\
---------------------------------------------------------------------------
    \1\  22 U.S.C. Sec.  7102(10) (2015).
    \2\  Sec.  7102(4) (emphasis added).
    \3\  Sec.  7102(9).
    \4\  18 U.S.C. Sec.  1591(a)(1) (2018).
    \5\  Sec.  1591(a)(2).
    \6\  See e.g., The Traffickers, The National Human Trafficking 
Hotline, https://humantraffickinghotline.org/what-human-trafficking/
human-trafficking/traffickers (last visited Sept. 25, 2018).
---------------------------------------------------------------------------
    The United States is not alone in this approach to child 
sex trafficking. The United States joins with most other 
nations in ratifying the Protocol to Prevent, Suppress and 
Punish Trafficking in Persons, Especially Women and Children, 
supplementing the United Nations Convention Against 
Transnational Crime (``Palermo Protocol''). This Protocol 
defines trafficking in persons even more broadly to include:

    the recruitment, transportation, transfer, harbouring or 
receipt of persons, by means of the threat or use of force or 
other forms of coercion, of abduction, of fraud, of deception, 
of the abuse of power or of a position of vulnerability or of 
the giving or receiving of payments or benefits to achieve the 
consent of a person having control over another person, for the 
purpose of exploitation. \7\ Not only does the Palermo Protocol 
explicitly identify giving or exchanging benefits to the person 
who has control over the trafficking victim, but it defines 
exploitation to include ``at a minimum the exploitation of 
prostitution of others or other forms of sexual exploitation.'' 
\8\ As in the United States, the Protocol requires no force if 
the victim is a child under the age of 18. \9\
---------------------------------------------------------------------------
    \7\  G.A. Res. 55/25, Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children, supplementing 
the United Nations Convention Against Transnational Organized Crime, at 
Art. 3(a) (Nov. 15, 2000) [hereinafter Palermo Protocol].
    \8\  Id.
    \9\  Id., art. 3(c)-(d). As a signatory to the Protocol, the United 
States is required to establish measures to prevent and combat 
trafficking in persons. Id. art. 9.

    Therefore, sex trafficking occurs under American law when 
any person receives a benefit or something of value in exchange 
for providing another for a sex act. Internationally, when one 
with control over a child receives a benefit in exchange for 
consenting to the child's sexual exploitation, sex trafficking 
occurs. This language encompasses intra-familial sex 
trafficking, which is a significant problem throughout the 
world. \10\
---------------------------------------------------------------------------
    \10\  Press Release, Family Members Linked to Nearly Half of Child 
Trafficking: New IOM, Polaris Data, Int'l Off. of Migration (Nov. 28, 
2017), https://www.iom.int/news/family-members-linked-nearly-half-
child-traffickingnew-iom-polaris-data (last visited Sept. 25, 2018).

---------------------------------------------------------------------------
Interest of the Commission

    Prior to the year 2000, the international community did not 
explicitly label human trafficking as the particular form of 
sexual exploitation it is today. However, since the Palermo 
Protocol and the TVPA, the many manifestations of child sex 
trafficking have become more widely understood and documented. 
That being said, forms of trafficking previously considered 
child sexual assault often remain unidentified and are 
addressed purely as child sexual assault cases. While the line 
can be obscure between the traditional understanding of child 
sexual assault and child sex trafficking, an essential 
distinction is the presence of a commercial component. That 
commercial component, however, is not limited to a direct 
exchange of currency for a sex act. Rather, it encompasses 
situations in which any person receives a benefit or something 
of value in exchange for a sex act of that or another person. 
In the intra-familial trafficking context, that includes when a 
family member receives a benefit and consents to their child's 
sexual exploitation.
    Given the leadership of the United States in combating all 
forms of sex trafficking, but particularly child sex 
trafficking, the Commission has an interest in paying 
particular attention to any indications of child sex 
trafficking in this or any case.
    In Judge Venckiene's case, assertions have been made that 
the child at issue in this case was not only sexually abused, 
but that the child's mother was complicit in allowing the 
abuse. \11\ In the course of the Commission's review of this 
case, should it encounter evidence of this compliance being in 
exchange of something of value, or that the victim's mother 
received a benefit for her consent to sexually abuse her 
daughter, such information would suggest a case involving child 
sex trafficking. Complicity in sexual abuse is not in and of 
itself trafficking but could, instead, be considered conspiracy 
to abuse, a serious enough crime in and of itself. However, if 
evidence exists that the abusers provided financial and other 
benefits to the mother of the child victim, this child sexual 
abuse could also implicate child sex trafficking.
---------------------------------------------------------------------------
    \11\  See Neringa Venckiene v. United States, No. 18-2529 (7th Cir. 
2018), Jurisdictional Memo. at 2; Brief and Appendix for Petitioner-
Appellant at 7, 8, 15-16.
---------------------------------------------------------------------------
    As the Commission considers the Venckiene case on questions 
of extradition and asylum, it may also wish to consider the 
possible implications of child sex trafficking, should it 
encounter such evidence. While child sexual abuse in all its 
forms is an assault on the dignity of a child, the matter of 
child sex trafficking is one of import, not only to the United 
States, but globally.

Conclusion

    Given the leadership of the United States in combatting 
trafficking in persons, and Congress' specific role in crafting 
comprehensive trafficking legislation and ratifying the Palermo 
Protocol, instances of child sex trafficking have great import 
in American policy. If evidence of a benefit based compliance 
emerges in the Commission's review of any case, such evidence 
should be closely examined. Therefore, as the Commission 
considers this complex case in its many implications, it also 
should examine it through a lens of child sex trafficking, 
should the investigation indicate a commercial sex act. As 
such, I would suggest whatever remedy the Commission seeks, it 
do so within this context.

                   Prepared Statement of Abbe Jolles

    Thank you for the invitation to speak to you today about 
the extradition of Judge Niringa Venckiene. My name is Abbe 
Jolles. I am an international human rights litigator working 
globally. I was the first American woman admitted to the 
International Criminal Court and I achieved a landmark decision 
at the United Nations Rwanda Tribunal. I am a founding member 
of Hear Their Cries, working to end immunity for sexual 
assaults, committed by staff members of international 
organizations, including the United Nations. I have tried cases 
for more than thirty years and I have handled hundreds of 
assault cases both felonies and misdemeanors.
    I am going to focus on three areas:

        1. What constitutes an extraditable offense under 
        Article 2 of the Extradition Treaty between the United 
        States and Lithuania.

        2. The Extradition Treaty's Article 16 limits on 
        addition of new charges upon Judge Venckiene's return--
        a technical but unenforceable limit.

        3. The important proviso that extradition must be 
        refused when charges are politically motivated under 
        Article 4.

    In 2015 Lithuania demanded extradition of Judge Venckiene 
based on an alleged May 2012 assault on a federal officer. 
Judge Venckiene fled to the United States in April of 2013 and 
immediately filed a request for political asylum which is still 
pending. Between the May 2012 alleged assault and her April 
2013 flight to the United States, Judge Venckiene was not 
arrested. At the time of the extradition demand Judge Venckiene 
had been in the United States for two and a half years.
    On May 17, 2012 240 federal officers stormed Judge 
Venckiene's home to remove her 7 year old niece. It is alleged 
that Judge Venckiene and the little girl resisted and that 
Judge Venckiene punched a federal officer.
    In the United States when a federal officer is feloniously 
assaulted, the perpetrator is arrested immediately and jailed 
without bond. Here it strains credulity to believe that there 
was a serious assault when the perpetrator remained free for an 
entire year and then was able to flee the country. Moreover no 
extradition request was made for two and a half years after 
Judge Venckiene's arrival in the United States.
    In the United States these types of assault charges are 
often disposed of by way of plea bargains. Fair Trials 
International reports that there is no plea bargaining process 
in Lithuania.\1\ This further taints the process and presents a 
clear and present danger to Judge Venckiene should she be 
returned to Lithuania. \2\
---------------------------------------------------------------------------
    \1\  https://www.fairtrials.org/wp-content/uploads/Criminal-
Proceedings-and-Defence-Rights-in-Lithuania1.pdf 2014, page 6.
    \2\  To avoid a trial Lithuania sometimes employs a ``fast tracked 
procedure'' called a ``penal order'' an ``abbreviated alternative'' to 
a public trial. In a penal order procedure there is no indictment. 
Instead the prosecutor asks the Judge to impose sentence after the 
Accused admits to the charges. This is essentially a plea without the 
bargain. See TRACING THE INSTANCES OF PLEA BARGAINING IN THE LITHUANIAN 
CRIMINAL JUSTICE SYSTEM, 2018, Simona Garbataviciute, University of 
Ljubljana, Faculty of Law, Doctoral Program in Legal Studies, 
Criminology, http://www.journals.vu.lt/teise/article/viewFile/11657/
10461, page 138.
---------------------------------------------------------------------------
    The legal filings in this matter indicate that many charges 
have been added and subtracted over six years. At this juncture 
there is one so called extraditable charge and three related 
charges, not extraditable on their own. Technically, pursuant 
to Article 16, Lithuania is not permitted to add charges once 
Judge Venckiene returns. Practically this is unenforceable. 
This is a matter of concern here because Lithuania's original 
extradition request contained 14 charges, 10 of which are not 
extraditable offenses. In addition during the last six years 39 
different charges were alleged, most of which cannot be the 
basis of extradition.
    There is much evidence that the extradition demand for 
Judge Venckiene is politically motivated. When charges are 
politically motivated the Secretary of State must refuse 
extradition. An ``army'' of 240 federal officers converging on 
a private home, to take custody of one little girl, is a 
powerful indicator of political motivation. There are many 
other indications of political motivation including the nature 
of all but one of the 39 charges added over the past 6 years. 
Charges such as ``contempt for the memory of the deceased'', 
``unauthorized disclosure about a person's private life'', 
``abuse of the rights and duties of parents'' and ``complicity 
in a criminal act'' are a few of the manufactured, vague, 
politically motivated charges.
    Press reports indicate that sending Judge Venckiene back to 
Lithuania is a likely death sentence and that there is no 
chance of a fair trial. \3\ It is notable that Judge 
Venckiene's political party, ``The Way of Courage'' seeks 
changes in the justice system including implementation of trial 
by jury.
---------------------------------------------------------------------------
    \3\  http://www.chicagotribune.com/news/local/breaking/ct-met-
chicago-area-woman-lithuania-extradition-20180712 story.html
---------------------------------------------------------------------------
    It is also notable that in 2017 the State Department issued 
a report indicating that Lithuanian prisons do not meet 
international standards. \4\ Also in 2017 Malta rejected an 
extradition request from Lithuania on this basis. \5\ Ireland 
has refused to extradite to Lithuania based on substandard 
Lithuanian prison conditions as well. The Irish court ruled 
that the Accused was likely to be held in ``inhuman and 
degrading conditions if extradited.'' \6\ Denmark has refused 
extradition to Lithuania finding there was a risk the Accused 
would be tortured if returned to face charges. \7\
---------------------------------------------------------------------------
    \4\  https://www.state.gov/documents/organization/277431.pdf page 
1.
    \5\  https://www.timesofmalta.com/articles/view/20170518/local/
court-turns-down-lithuanian-request-to-extradite-malteseman.648339.
    \6\  https://www.bbc.com/news/uk-northern-ireland-21043433
    \7\  https://www.thelocal.dk/20140709/denmark-refuses-to-extradite-
child-porn-suspect
---------------------------------------------------------------------------
    In conclusion it is likely that Judge Venckiene will suffer 
irreparable harm if she is returned to Lithuania. I am here 
today in the hopes that I can help convince you to do 
everything in your power to keep Judge Venckiene in the United 
States so that her 2013 asylum application, which has an 
excellent chance of success, can be decided.

            Prepared Statement of Dr. Vytautas Matulevicius

    Dear Helsinki Commission Members, Dear meeting 
participants.
    First of all, I would like to sincerely thank you for 
inviting us to this important event and giving us the 
opportunity to speak. Thank you for giving your attention to 
Lithuania as well.
    I will talk about the problem under discussion, based on 
one particular conflict. I think that in the history of any 
country you can find such cases where like in a mirror all the 
main problems of that country are reflected. It is enough to 
remember the classic Dreyfus affair in France and the famous 
Emile Zola article, and you will understand what I am talking 
about. The pedophilia case that shook Lithuanian society, and 
the judicial persecution of Neringa Venckiene became such a 
mirror in Lithuania.
    Until recently, this woman was one of the most popular 
politicians in the country, a leader in the parliamentary 
party, a symbol of the fight against the court corruption and 
maybe even a future president. However, now she is a prisoner 
in Chicago prison and she can be deported to Lithuania where 
dozens of accusations and uncertain future are awaiting her. 
What happened that such a respectable and successful woman who 
worked as a judge for 13 years suddenly became an 
internationally sought for criminal?
    It happened as something that I would not wish on anyone of 
you.
    One day, her brother's daughter began to tell and visually 
demonstrate how her mother's friend and two more men were using 
her body. As she always stood on the side of justice, now N. 
Venckiene also remained loyal to herself--she began to defend 
the child. The scale of such a fight can be judged from the 
fact that over the years, she and her brother wrote over 200 
complaints and statements to law enforcement and other state 
authorities. However, none of the alleged pedophiles ended up 
on a defendant's bench.
    One of the three men, who worked as a judge, was shot by 
someone, the other was not identified, and the third one, who 
was the only one against whom the charges of molestation were 
brought, on the eve of the court hearing fell from a four-
wheeled motorcycle and drowned in a knee-high puddle of water 
(incidentally, he was the assistant to the speaker of 
Lithuanian parliament). The girl's father, who became 
disappointed due to the inaction of law enforcement, videotaped 
his daughter's testimony and began distributing it to 
journalists, and he was also found dead.
    When the main parties to the proceedings were murdered, or 
died in suspicious circumstances, the court tried the deceased 
defendant. According to the court, there was no pedophilia, as 
the allegations were deliberately made up by the girl's father 
who wanted to harm his ex-wife.
    This is a short plot of this case. It shows what can happen 
to people who are determined to fight against influential 
pedophiles who have important connections. Unfortunately, even 
in the old European democracies with long legal traditions, 
pedophilia cases are faced with enormous difficulties and the 
resistance of extremely influential forces. This can be 
confirmed by Great Britain's example, where children were 
sexually exploited by the famous television star and other 
exceptionally high-ranking people for many decades, but their 
crimes began to be investigated only in recent years when many 
of them were already standing before God's court.
    A similar situation was in Belgium where the investigation 
of the famous pedophile case also encountered obstacles that 
have not yet been seen, and where the case has moved from the 
point of death only when hundreds of thousands of people came 
to the streets protesting the inactivity of the law enforcement 
and the country's parliament decided to step in (the cases of 
Marc Dutroux and his wife Michelle Martin).
    In Lithuania, which has still not eliminated the flaws and 
corrupt practices of the Communist period, the situation is 
even more complicated in this respect. And the case of N. 
Venckiene itself can be regarded as a typical recurrence of the 
Soviet legal system--a person who talks too much about the 
crimes of influential people can be turned into a criminal 
herself. This was the way that KGB behaved when the facts 
brought about by the dissidents, or other truth seekers became 
too dangerous for the system. One of the former fighters 
against the Soviet regime, Nijole Sadunaite, commented on the 
case of N. Venckiene: ``This is the same KGB script.'' By the 
way, N. Sadunaite is a Honorary Citizen of the City of Texas, 
and she was also awarded by the Republican Party of California 
with a medal for her long fight for human rights. This is a 
person who knows what she says.
    I understand that the Chicago judge who examined the 
extradition case of N. Venckiene could not know the specifics 
of all post-communist countries and therefore she decided that 
the refugee would have every opportunity to defend her rights 
in the Lithuanian court. However, for those who know the 
specifics, the judge's argument has only caused a bitter smile.
    Here, I will list at least some of the main violations of 
the norms of international law that N. Venckiene would need to 
endure, if she was deported to Lithuania.
    First of all, there would be an imminent danger to her 
life. I have already mentioned that the pedophilia case in 
question has already claimed the lives of at least six people--
including those who were killed or died under suspicious 
circumstances. One of the leaders of the prosecutor's office 
even publicly described the case as a ``killer,'' but the 
protection of the state was appointed not to the victims who 
suffered from the actions of pedophiles, but to the mother of 
the sexually exploited girl who was supposed to be indicted as 
an accomplice in this case based on a court order (however, 
prosecutors did not comply with this order). Therefore, there 
is a high probability that no appropriate attention will be 
given to N. Venckiene's safety this time, and something might 
happen to her in a prison cell--as is often the case in 
Lithuanian prisons. To send a person to death prohibits not 
only the rules of international law, but also elemental 
humanitarian principle.
    Second. According to the Universal Declaration of Human 
Rights, every person has the right to a fair and impartial 
court hearing (Article 10). If N. Venckiene was returned to 
Lithuania, her case would sooner or later be considered by the 
Supreme Court, whose chairman G. Kryzevicius publicly named N. 
Venckiene ``an abscess in the judicial system.'' In these 
words, he preliminarily made it clear that only a verdict that 
N. Venckiene is guilty is acceptable, and by doing so he 
limited her right to a fair and impartial trial. Although 
currently G. Kryzevicius is in charge of another position, he 
continues to be a very influential judicial figure--the head of 
the Supreme Administrative Court of Lithuania.
    Third. Then the Chairman of the Supreme Court proceeded 
even further calling N. Venckiene ``an abscess in the political 
system.'' And this was almost an open call for the politicians 
to deal with the common enemy who constantly criticized both 
the judiciary and the political authorities. This happened when 
Mrs. Venckiene was elected to the Seimas of the Republic of 
Lithuania. When she, fearing for her own safety, left for the 
United States, the Seimas impeached her for not attending 
Seimas meetings and expelled her from parliament. This was done 
behind her back without giving even a chance to defend herself 
and even in violation of the Statute of the Seimas, which has 
the power of law. The same principles would be followed if N. 
Venckiene was returned to Lithuania, since her fate would be 
again in the hands of the same conspired politicians and 
judges.
    Thank you for your attention! I will be happy to answer 
your questions.

  Statement of the Embassy of the Republic of Lithuania to the United 
                  States of America and to the United 
                             Mexican States

    Chairman Wicker, Co-Chairman Smith, Ranking Member Cardin, 
Ranking Member Hastings, and distinguished Commissioners,
    The Embassy of the Republic of Lithuania is not in a 
position to participate in the hearing of the U.S. Helsinki 
Commission on September 27, 2018 on the issue of Neringa 
Venckiene extradition request. As stated in previous occasions, 
we are not entitled to interfere in or attempt to sway legal 
processes or intervene in the judicial processes.
    Lithuania fully abides by the core tenet of democracy--the 
rule of law--and has profound respect for the principle of 
judicial independence, which is at the heart of both our 
judicial systems, in the United States and in Lithuania.
    The Embassy of the Republic of Lithuania expresses its hope 
that the Extradition Treaty between the Government of the 
Republic of Lithuania and the Government of the United States 
of America, concluded on October 23, 2001, will be implemented 
in good faith, as per spirit and the letter of the Treaty.
    Lithuania has a solid track record of protecting and 
defending human rights and combatting human trafficking, both 
at home and abroad. Notably, on this latter issue, Lithuania 
has been consistently placed among Tier 1 nations in annual US 
Department of State Trafficking in Persons Reports.
    As a close ally and partner of the United States and a 
staunch advocate of the rule of law, human rights, and 
democracy, Lithuania has on numerous occasions worked together 
with the United States--and the Helsinki Commission 
specifically--to safeguard the protection of human rights 
defenders, as well as individual freedoms and liberties in 
countries under undemocratic, authoritarian rule.
    In the spirit of our long-standing cooperation, we remain 
ready to respond to the questions and queries of the U.S. 
Helsinki Commission on Lithuania's strong democratic governance 
and rule of law tradition at an appropriate time and without 
prejudice to the ongoing judicial processes.

                     <all>


  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
